        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department's Management of
Nuclear Materials Provided to
Domestic Licensees




DOE/IG-0813                      February 2009
                                 Department of Energy
                                     Washington, DC 2 0 5 8 5
                                     F e b r u a r y 1 8 , 2009



MEMORANDUM FOR THE SECRETARY

                       ,   2d<22;~;14d?
FROM:                  Gregory H. Friedman
                       Inspector General

SUBJECT:               1NFORMATION: Audit Report on "The Department's
                       Management of Nuclear Materials Provided to Domestic
                       Licensees"

BACKGROUND

Since the 1 9501s,the Department of Energy and its predecessor agencies have provided
nuclear materials, including various forms of uranium and plutonium, to academic
institutions, conlmercial facilities and other government agencies. The Atomic Energy
Act of 1954 provided authority for these materials to be loaned or leased for research,
educational or medical purposes, or for other projects consistent with the Department's
mission. As of the end of September 2007, 101 domestic facilities had Department-
owned nuclear materials in their possession.

The Department and the Nuclear Regulatory Commission (NRC) share responsibility for
nuclear material provided to domestic licensees, including accounting for the material
and tracking its location. Both organizations use the Department of Energy managed
Nuclear Materials Management and Safeguards System (NIVIMSS), the U.S.
Government's official central nuclear materials accounting system, to assist them in
carrying out their respective responsibilities. In October 2001, we reported that the
Department could not fully account for nuclear materials loaned or leased to domestic
licensees, at least partly due to inaccurate and/or incomplete NMMSS record keeping.
We made several recommendations designed to ensure that the Department confirmed
nuclear material balances, enhanced its control over these materials, and improved its
coordination with the NRC. The Department concurred with our recommendations and
pledged to take a number of actions designed to improve accountability. We initiated this
follow-up audit to determine whether the Department was adequately managing its
nuclear materials provided to domestic licensees.

RESULTS OF AUDIT

Our review disclosed that the Department could not always accurately account for, and,
had not adequately managed, significant quantities of nuclear material that had been
provided to domestic licensees. For about 37 percent (15 of 40) of the domestic facilities
we reviewed. the Department could not accurately account for the quantities and
locations of certain nuclear materials. In a number of cases, the Department had also
agreed to write-off large quantities without fully understanding the ultimate disposition of
these materials. In particular:
        Waste processiilg facilities we visited were unable to verify that 6,71 1 grams of
        special iluclear material and 35,269 kilograms of depleted and/or normal uranium,
        recorded in NMMSS as being in their custody, were either still under their control
        or had been treated and disposed of as waste;

        During 2004, a number of domestic licensees reported that their actual holdings of
        Ilepartment-owned nuclear materials were less than the quantities recorded in
        NNIMSS. Rased on that information, the Department agreed to write off over
        20,000 grams of special nuclear material and over 194,000 kilograms of depleted
        and/or normal uranium without investigating the whereabouts or actual
        disposition of the material; and,

        A 32 gram plutonium-beryllium source on loan to a college and subsequently
        transferred to another academic institution was not accounted for in NMMSS.

Except for a few instances, the Department had also not regularly contacted domestic
licensees to determine whether they had a continuing need for or wished to return nuclear
materials in their possession. For example, three licensees with Department-owned
nuclear materials told us that they no longer needed and wanted to return materials, but
had not been contacted by the Department. Additionally, two of these licensees were
confused about how to execute such a return.

The Department's management of its nuclear materials held by domestic licensees was
less than fully effective because of deficiencies in monitoring and control practices. We
found that certain corrective actions had been taken in response to our October 2001
report, such as the one-time confirmation of inventory balances in 2004. While these
actions resulted in some programmatic improvements, a few key commitments made by
the Department were not completed nearly eight years after our earlier audit. In
particular, although the Department established requirements for periodic confirmations
of these nuclear materials inventories after the 2004 exercise, additional confirmations
had not actually occurred. Additionally, the Department's guidance to licensees on
preparing and reporting inventory transactions was insufficient, leading to inventory
recordkeeping concerns. These and other weaknesses affected the Department's ability to
accurately account for its nuclear materials inventories that had been provided to others.

We recognize the difficulty the Department faced during 2004 when attempting to
reconcile balances and resolve accounting and tracking errors that accumulated over a
number of years. These difficulties were, however, a direct result of long-standing
material monitoring, control and tracking concerns. Without improvement, the
Department cannot properly account for and effectively manage its nuclear materials
maintained by domestic licensees and may be unable to detect lost or stolen material.
Accordingly, we made several recommendations designed to improve the Department's
management of nuclear inaterials provided to domestic licensees.

MANAGEMENT REACTION

Management generally agreed with the recoinmeildations in the report and agreed that the
Department, through its prograin offices, needs to filrther enhance ils oversight and
management of nuclear materials provided to domestic licensees. Management's planned
corrective actions are generally responsive to our recommendations. Management's
comments and our responses are summarized in the body of the report and are attached as
Appendix 3.

Attachment

cc: Office of the Deputy Secretary
    Office of the Under Secretary
    Office of the Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief of Staff
    Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, CF- 1.2
REPORT ON THE DEPARTMENT'S MANAGEMENT OF NUCLEAR
MATERIALS PROVIDED TO DOMESTIC LICENSEES

TABLE OF
CONTENTS


Management of Department-owned Nuclear Materials

Iletails of Finding ............................................................................................................. 1

I<ecommendations and Comments ....................................................................................8


Appendices

1. Ob.jective, Scope, and Methodology ......................................................................... 1 1

2. I'rior Report ..............................................................................................................13

3. Management Comments ............................................................................................ 14
MANAGEMENT OF DEPARTMENT-OWNED NUCLEAR
MATERIALS

Nuclear Material                  Department of Energy (Department) could not always
Control and                       accurately account for and had not adequately managed
Accountability                    significant quantities of nuclear material that had been
                                  provided to domestic licensees. For 15 of the 40 (about 37
                                  percent) non-Departmental domestic facilities we reviewed,
                                  the Department: (1) did not have an accurate accounting of
                                  its nuclear materials held by or removed from a licensee's
                                  site; or, (2) agreed to write off large quantities of nuclear
                                  materials from its tracking system without sufficient
                                  knowledge of the ultimate disposition of the materials. We
                                  also found that a few domestic licensees had nuclear
                                  materials on site but had no regular contact with
                                  Department officials and were unaware of procedures to
                                  return unneeded Department-owned materials. While the
                                  specific issues varied from facility to facility, each
                                  illustrates problems the Department has with control of its
                                  nuclear materials held by domestic licensees.

                                   Accountability over Department-owned Nuclear Materials

                                  The Department had not maintained accountability over its
                                  nuclear materials at some domestic licensees. While the
                                  tracking system utilized by the Department, the Nuclear
                                  Materials Management and Safeguards System (NMMSS),
                                  showed quantities of nuclear materials in domestic
                                  licensees' inventories, some of these materials were no
                                  longer maintained by the licensee and/or their ultimate
                                  disposition was uncertain. Specifically, the waste
                                  processing facilities we visited were unable to verify that
                                  the 6,711 grams of special nuclear material or the 35,269
                                  kilograms of depleted and/or normal uranium (source
                                  material1), currently being tracked in the NMMSS, were
                                  either still on site or had been treated and disposed of as
                                  waste. As an example, one facility's NMMSS inventory
                                  included 6,000 kilograms of depleted uranium that was
                                  transferred to the site nearly ten years ago. Licensee
                                  officials indicated that the material would not still be at
                                  their facility because they were in the business of
                                  processing waste. However, those same officials could not
                                  verify the ultimate disposition of the materials. Similarly,
                                  the Departmental program element with original
                                  responsibility for the material was also not aware of the
                                  actual disposition, nor did the program know why the
                                  material was transferred to the licensee in the first place. In
1
 Includes depleted uranium, normal uranium, thorium, or any other nuclear material determined to be
source material.
________________________________________________________________
Page 1                                            Details of Finding
                      another instance, a manufacturing company we visited
                      acknowledged possessing only a small portion (13
                      kilograms) of the 533 kilograms of Department-owned
                      depleted uranium reported in its NMMSS balance. The
                      company indicated that the rest of the depleted uranium in
                      its custody was privately-owned and was being treated as
                      such for reporting requirements.

                             Materials Written Off From NMMSS Inventories

                      The Department also agreed to write off large quantities of
                      nuclear materials at domestic licensees without confirming
                      the disposition of those materials. In response to our
                      October 2001 report, the Nuclear Regulatory Commission
                      (NRC), in coordination with the Department, undertook a
                      one-time comprehensive confirmation of NMMSS
                      inventory balances in 2004. This effort was used to
                      rebaseline all of the NMMSS information related to the
                      Department's nuclear materials at domestic licensees. To
                      rebaseline the inventory levels in the NMMSS, the
                      Department agreed to write off significant amounts of
                      nuclear materials based on the licensees' reported nuclear
                      materials on-hand. The Departmental elements with
                      original programmatic responsibility for the materials that
                      had accumulated at the licensees over many years were not
                      contacted for additional explanations, justifications, or
                      approvals before the changes were made.

                      During this effort, the Department agreed to write off the
                      following quantities of its nuclear materials from the
                      NMMSS inventories of just the 40 facilities we reviewed:

                         •    20,580 grams of enriched uranium;
                         •    45 grams of plutonium;
                         •    5,001 kilograms of normal uranium; and,
                         •    189,139 kilograms of depleted uranium.

                      Considering the potential health risks associated with these
                      materials and the potential for misuse should they fall into
                      the wrong hands, the quantities written-off were significant.
                      For example, even in small quantities normally held by
                      individual domestic licensees, special nuclear materials
                      such as enriched uranium and plutonium, if not properly
                      handled, potentially pose serious health hazards. Normal
                      and depleted uranium are also hazardous in that they are
                      chemically toxic heavy metals that, if inhaled or ingested in
                      high doses, can have adverse health effects.
________________________________________________________________
Page 2                                            Details of Finding
                      During physical verification of inventory, we also
                      discovered that an academic institution (College A) held a
                      Department-owned 32 gram plutonium-beryllium source
                      that was not being tracked in NMMSS. This source had
                      been transferred to College A from a different institution
                      (College B) in 1986 without the appropriate transaction
                      reported to the NMMSS. Despite the actual physical
                      transfer, this source remained in College B's NMMSS
                      inventory until 2004. A College B official was questioned
                      about this source in 2001, and a NMMSS official
                      confirmed with College B that, in 1986, the source had
                      been transferred to College A. Based on the information
                      provided by College B, a miscellaneous shipment
                      transaction was prepared by the Department's NMMSS
                      contractor to write off the source from College B's
                      inventory balance. However, due to a reporting error in
                      this transaction, the source was not actually written off
                      College B's NMMSS inventory until 2004. More
                      importantly, no transaction was made to record the receipt
                      of the source at College A. We physically verified that the
                      unaccounted for plutonium-beryllium source existed in a
                      storage area at College A during our site visit. This
                      Department-owned source had been at College A for over
                      20 years without any Departmental monitoring or control.
                      According to the Office of Health, Safety and Security
                      (HSS), plutonium-beryllium neutron sources can have high
                      neutron dose rates, and if one of these sources was removed
                      from its shielding and placed in close proximity to
                      individuals for an extended period of time, there could be
                      adverse health effects.

                           Excess Nuclear Materials at Domestic Licensees

                      We also identified several domestic licensees that had
                      custody of loaned nuclear materials but had no regular
                      contact with Department officials and were unaware of
                      procedures to return materials they no longer needed.
                      According to the original loan agreements, the material
                      remains the property of the Department and must be
                      returned once the agreement is terminated. The facility is
                      responsible for costs associated with the return of the
                      materials. The materials these licensees wished to return to
                      the Department, which in one case has been in storage at a
                      facility and never used for over 30 years, included
                      quantities of enriched and depleted uranium. These
                      facilities had not been contacted by the Department for

________________________________________________________________
Page 3                                            Details of Finding
                      periodic confirmation of balances or inquiries as to whether
                      they still had a need for the materials in their custody. As
                      such, current licensees told us that they were confused
                      about their return options. The names of these facilities
                      have been provided to the Department so that they can
                      decide which organization needs to coordinate the return or
                      disposition of these materials.

Monitoring and        Management of the Department's nuclear materials at
Control               domestic licensees had not been fully effective because of
                      deficiencies in its monitoring and control. Corrective
                      actions taken in response to our October 2001 report
                      resulted in some improvements. For example, a process
                      was established to manually identify and address negative
                      balances on a monthly basis. Action was also taken to
                      improve coordination between the Department and the
                      NRC, which included a one-time effort in 2004 to confirm
                      the NMMSS inventory data. A few key steps, however,
                      were never implemented.

                      Specifically, the Department had not performed or
                      scheduled periodic confirmations of its nuclear materials
                      held by domestic licensees as we recommended in our 2001
                      report. These confirmations have not been performed even
                      though the Department formally made them a requirement
                      in August 2006. Without periodic updates, inventory
                      information can become outdated due to the changing
                      nature of these nuclear materials inventories. While a one-
                      time, comprehensive confirmation of the NMMSS
                      inventory data was performed in late 2004, it did not
                      identify the differences that existed prior to this
                      confirmation, which we noted during 2 of our 13 site visits.
                      On the date we performed our site review, these differences
                      had not been resolved. Notably, the unreported plutonium-
                      beryllium source identified at an academic institution was
                      still not being tracked in NMMSS as of July 2008. We also
                      found additional differences at other sites that we visited.
                      However, with one exception, we could not specifically
                      determine whether they originated before or after the 2004
                      confirmation.

                      We also found that inconsistencies existed in the NMMSS
                      information because the Department's guidance to licensees
                      on preparing and reporting inventory transactions was
                      insufficient. A number of licensee officials at facilities we
                      reviewed stated that they needed such guidance because of
                      the complexity of the process. One such circumstance that
________________________________________________________________
Page 4                                            Details of Finding
                      exemplifies this issue is the reporting of nuclear materials
                      at waste processing facilities. In most cases, transactions
                      from the Department were reported to the NMMSS to send
                      the nuclear materials to these facilities, but transactions to
                      record their ultimate disposition have not been consistently
                      reported. Additionally, in the case of the manufacturing
                      company previously mentioned, further guidance is
                      necessary to clarify whether the depleted uranium in its
                      possession should be treated as Department-owned, as
                      reported in the NMMSS, or privately-owned, as it is
                      currently considered by the company.

                      Sites also need to be made aware of the Department's
                      reporting requirements, which differ from NRC
                      requirements for some of the Department-owned nuclear
                      materials held by licensees. For example, the Department
                      requires all of its reportable depleted uranium to be tracked
                      in the NMMSS through the regular transaction reporting
                      process whereas NRC does not. The inconsistent
                      application of NMMSS transaction reporting has caused
                      large quantities of nuclear materials to accumulate in
                      NMMSS inventories, when it is possible that the materials
                      have been disposed of, transferred to another company, or
                      even returned to the Department. Additionally, many of
                      the licensees with smaller inventories of nuclear materials
                      had not updated the NMMSS for several years or even
                      decades, because the materials they possessed did not meet
                      NRC's minimum reporting thresholds. Without accurate
                      transaction recording, the Department will not be able to
                      properly track these nuclear materials inventories. While it
                      is possible that changes in NRC reporting requirements that
                      took effect in January 2009 could reduce some of the
                      inconsistencies, the effect of these changes are not yet
                      determinable.

                      Additionally, while the 2004 confirmation appeared to
                      eliminate most of the questionable data in the NMMSS,
                      there were quantities of nuclear materials that were
                      removed from NMMSS inventories without justification
                      and approval by the responsible program element. This
                      occurred because, according to Departmental officials
                      responsible for tracking the material, programmatic
                      responsibility for many of the nuclear materials was not
                      maintained over the years due to numerous programmatic
                      reorganizations and changes in the program/project
                      identifiers in the Department's accounting system.
                      However, as noted in Departmental regulations,
________________________________________________________________
Page 5                                            Details of Finding
                      responsibility for verifying NMMSS inventory balances is
                      vested in either the Departmental program office
                      responsible for the materials or the Departmental element
                      responsible for NMMSS when no programmatic owner has
                      been assigned. Thus, although the element responsible for
                      NMMSS should have taken steps to justify the write off of
                      material, program offices were not contacted to provide
                      justifications for the changes or explanations of the
                      differences. Therefore, it is not possible to determine what
                      the differences represented or what ultimately became of
                      the materials. Much of the materials that were written off
                      were those that had been provided to the previously
                      discussed waste processing facilities for disposal. In
                      responding to our draft report, HSS asserted that materials
                      at disposal facilities were appropriately dispositioned
                      within NMMSS during the 2004 confirmation. However,
                      while we agree that the transaction entries effectively
                      eliminated the materials from NMMSS inventories, we
                      disagree that they should have been eliminated without
                      explanations of the differences and Department knowledge
                      of the ultimate disposition of the materials.

                      We recognize the difficulty the Department faced during
                      2004 when attempting to reconcile balances and resolve
                      accounting and tracking errors that may have accumulated
                      over a number of years. Indeed, HSS officials told us that
                      they believed the NMMSS accounting inaccuracies were
                      most likely the result of the non-Department facilities'
                      issues with changes in the reporting requirements, lost or
                      inaccessible records, inaccurate reporting or reporting
                      omissions. These difficulties were, however, exacerbated
                      by long-standing issues with monitoring, control and
                      tracking of materials. HSS officials indicated, in their
                      comments to the draft report, that one way to address these
                      issues would be to add language in future Departmental
                      contracts to spell out inventory and transaction reporting
                      requirements for government-owned nuclear materials,
                      since the Department had no authority to conduct on-site
                      confirmations of physical inventories. Adding this
                      language to future contracts should help the Department
                      monitor their materials at facilities that enter into future
                      agreements with the Department. However, as the owner
                      of the nuclear materials in question, the Department is
                      responsible for their control, accountability, and final
                      disposition, and under regulation, is required to annually



________________________________________________________________
Page 6                                            Details of Finding
                      obtain written verifications from existing licensees that
                      they continue to possess the materials and that the NMMSS
                      records are correct.

                      Finally, we noted during most of our reviews of academic
                      institutions and other non-Departmental facilities that the
                      Department had not contacted them at regular intervals to
                      inquire as to the status of these materials or whether they
                      were still needed and/or wanted. While some Departmental
                      elements made an effort to contact domestic licensees,
                      officials from several of the licensees we reviewed
                      indicated that, with the exception of the 2004 NMMSS
                      confirmation, they were not regularly contacted to verify
                      the status of the nuclear materials. In responding to our
                      draft report, HSS questioned why some of the excess
                      materials discussed earlier in this report were not brought
                      to their attention by the sites during the 2004 NMMSS
                      confirmation, but agreed that regardless of this, the
                      Department needed to continue to improve in this area.

Control over          Without adequate control and accountability, the Department
Nuclear Material      cannot effectively manage its nuclear materials at domestic
                      licensees. The Department's nuclear material
                      accountability programs must ensure that nuclear materials
                      are accounted for and that unauthorized acts are detected.
                      Insufficient accountability over nuclear material inventories
                      results in a reduced ability to detect lost or stolen material
                      and may adversely affect the Department's ability to
                      manage the disposal of these nuclear materials. Due to the
                      inconsistencies documented in our report, it would be
                      extremely difficult, if not impossible, for the Department to
                      accurately identify the type and quantity of its nuclear
                      materials affected if an incident occurred at one of the sites
                      whose NMMSS inventory we could not verify. Because of
                      the potential health risks and negative public perception
                      associated with nuclear materials management, the
                      Department should give this area increased priority.

                      In addition to the security aspects of this issue, these
                      inventories are essentially a liability that the Department
                      must eventually address. Unreliable records limit the
                      Department's ability to ensure that materials held by non-
                      Departmental sites are ultimately disposed of or reused
                      safely and effectively. At some point in the future, this
                      material should be returned to the Department and either
                      disposed of as waste or, if possible, reutilized in support of
                      Departmental missions. Unless the associated NMMSS
________________________________________________________________
Page 7                                            Details of Finding
                     records are complete and accurate as to material quantities
                     and locations, the complexity and cost of the Department's
                     disposal or reutilization tasks could be difficult to estimate.

RECOMMENDATIONS      To address the nuclear material accountability issues
                     discussed in our report, we recommend that the Chief
                     Health, Safety and Security Officer, in coordination with
                     the responsible Department program officials:

                        1. Conduct a confirmation of balances of Department-
                           owned nuclear materials held by domestic licensees
                           and establish a schedule for future periodic
                           confirmations. The resulting information should be
                           reconciled with NMMSS data and necessary
                           correcting entries made, in conjunction with the
                           justification and approval of either the responsible
                           Departmental program office or the Departmental
                           element responsible for NMMSS.

                        2. Develop and implement enhanced procedures for
                           the accounting of Department-owned nuclear
                           materials. Including, but not limited to, establishing
                           processes to:

                                a. periodically confirm the continuing need for
                                   Department-owned nuclear material at
                                   domestic licensees; and,

                                b. incorporate this information into
                                   Departmental material disposition and
                                   reutilization plans.

                        3. Clarify, as necessary, inventory transaction
                           recording and reporting requirements and enhance
                           the effectiveness and participation of the training
                           offered to domestic licensees. Potential actions
                           include, but are not limited to, developing and
                           implementing additional guidance, and establishing
                           web-based training opportunities.

MANAGEMENT           The Office of Health, Safety and Security (HSS) indicated
REACTION             that it generally agreed with our recommendations for
                     increased oversight and management of nuclear materials
                     provided to domestic licensees and additional coordination
                     efforts with the responsible program offices and field
                     entities. HSS noted that, shortly after we initiated our
                     audit, the Office of Security Evaluations began using
________________________________________________________________
Page 8                              Recommendations and Comments
                     Nuclear Materials Management and Safeguards System
                     (NMMSS) generated information to routinely question the
                     Departmental Material Control and Accountability program
                     officials about the government-owned materials transferred
                     from their facilities to domestic licensee facilities. HSS's
                     intent was to ensure that the facilities and programs at the
                     facilities take ownership and management responsibilities
                     for licensees' continued use and disposition planning of
                     these materials.

                     With respect to our specific recommendations, HSS
                     believed that ongoing and planned activities including the
                     new January 2009 NRC reporting requirements would
                     satisfy recommendations 1 and 2a. HSS also recognized
                     the need for additional coordination efforts with the
                     responsible Headquarters program offices and field entities
                     to ensure the implementation of recommendation 2b.
                     HSS's response to an earlier version of recommendation 3
                     indicated that the recommendation should focus on
                     ensuring licensee facilities with government-owned
                     materials are made aware of available training and support
                     for implementation of the existing guidance rather than
                     developing and issuing additional guidance.

                     Management's verbatim comments are included in
                     Appendix 3.

AUDITOR              Management concurred with our recommendations and
COMMENTS             recognized that improvements and continued vigilance are
                     needed to enhance the oversight and management of
                     nuclear materials provided to domestic licensees.
                     Management's comments are considered generally
                     responsive to the recommendations. The recent efforts by
                     the Office of Security Evaluations were not confirmed
                     during our review and do not appear to have been added to
                     its Material Control and Accountability Inspector's Guide,
                     but should lead to increased communications related to the
                     materials at non-Departmental sites.

                     Regarding our specific recommendations, management
                     asserted that ongoing and planned activities, including
                     changes to the NRC reporting requirements, will satisfy
                     recommendations 1 and 2a. These new reporting
                     requirements should provide the Department with better
                     information on the nuclear material inventory balances at
                     domestic licensees. The Department will need, however, to
                     evaluate the new NRC reporting requirements and
________________________________________________________________
Page 9                                                 Comments
                     supplement them as necessary to ensure that there is
                     sufficient information available to explain any inventory
                     differences and determine the ultimate disposition of
                     nuclear materials transferred from licensee facilities.

                     We also revised our third recommendation because we
                     continue to believe that the current guidance is confusing
                     and that the Department should review the existing
                     guidance and consider changes to clarify the requirements.
                     The existing training opportunities and offers of support
                     have been available to NMMSS users, but those items
                     alone have not been effective. We agree that ensuring all
                     licensees are aware of the training and support
                     opportunities that are made available to them is a positive
                     step. We also feel, however, that the establishment of
                     supplemental guidance and web-based training programs,
                     to be available as needed, could increase the effectiveness
                     and participation rate in NMMSS training among the
                     licensees.

                     HSS also provided a more detailed management analysis
                     and response to the draft report in an attachment to its
                     official comments and these have been reviewed and
                     incorporated into the final report as appropriate.




________________________________________________________________
Page 10                                                Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy (Department)
                      was adequately managing its nuclear materials provided to
                      domestic licenesees.

SCOPE                 The audit was performed from February 2007 to September
                      2008 at Department Headquarters in Washington, DC, and
                      Germantown, MD; the Oak Ridge Office and the Oak Ridge
                      National Laboratory in Oak Ridge, TN. In addition, we visited
                      or obtained data from 40 different non-Departmental facilities
                      in various states.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed Departmental and Nuclear Regulatory
                             Commission (NRC) requirements for the control and
                             accountability of nuclear materials;

                         •   Analyzed a Nuclear Materials Management and
                             Safeguards System (NMMSS) report with ending
                             inventory balances for Department-owned nuclear
                             materials dated September 30, 2007, to determine the
                             amount and types of nuclear materials located at non-
                             Department domestic facilities;

                         •   Held discussions with Department and NRC personnel
                             that used NMMSS information to determine their roles
                             and responsibilities related to the control and
                             accountability over nuclear materials;

                         •   Selected a judgmental sample of 40 non-Department
                             domestic facilities;

                         •   Met with licensee officials and sent confirmations to
                             determine whether their actual inventories of
                             Department-owned nuclear materials were consistent
                             with inventories reported in the NMMSS; and,

                         •   Analyzed historical information related to the 2004
                             NMMSS inventory rebaselining initiative to determine
                             the quantity of Department-owned nuclear materials
                             that were written off from the domestic licensees'
                             inventory balances.

                      This performance audit was conducted in accordance with
                      generally accepted Government auditing standards. Those


___________________________________________________________________
Page 11                              Objective, Scope, and Methodology
Appendix 1 (continued)

                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objective.
                      We believe that the evidence obtained provides a reasonable
                      basis for our findings and conclusions based on our audit
                      objectives. The audit included tests of controls and compliance
                      with laws and regulations related to managing the Department-
                      owned nuclear materials provided to non-Departmental
                      domestic licensees. Because our review was limited it would
                      not necessarily have disclosed all internal control deficiencies
                      that may have existed at the time of our audit. We examined
                      the establishment of performance measures in accordance with
                      Government Performance and Results Act of 1993, as they
                      related to the audit objective. We found that the Department
                      had established performance measures related to removing or
                      disposing of nuclear materials and radiological sources around
                      the world. We utilized computer generated data during our
                      audit and performed procedures to validate the reliability of the
                      information as necessary to satisfy our audit objective. As
                      noted in the report, we questioned the reliability of the
                      NMMSS data.

                      Management waived an exit conference.




___________________________________________________________________
Page 12                              Objective, Scope, and Methodology
Appendix 2

                                        PRIOR REPORT


Office of Inspector General Report


    •   Accounting for Government-Owned Nuclear Materials Provided to Non-
        Department Domestic Facilities (DOE/IG-0529, October 2001). This audit
        found that the Department of Energy could not fully account for nuclear
        materials loaned or leased to domestic licensees. The audit identified
        substantial amounts of nuclear materials that were reported to be at two licensed
        facilities that no longer existed, several licensee facilities that carried balances
        that were not logical and that could not be adequately explained or reconciled,
        and records that were incomplete in that they did not contain information on all
        Government-owned nuclear materials provided to licensees.
.




___________________________________________________________________
Page 13                                                  Prior Report
Appendix 3




___________________________________________________________________
Page 14                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 15                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 16                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 17                                         Management Comments
                                                          IG Report No. DOE/IG-0813__

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
